♦

Petition Appendix A

i

001

DISTRICT OF COLUMBIA COURT OF APPEALS
No. 17-FS-444

EOLE J

InreD.O.;
S.O.& M.B., Appellants.

AJG 23 2019

Appeal from the Superior Court of the
District of Columbi a
(NEG-204-16)

DISTRICT OF COLUMBIA
COURT OF APPEALS

(Hon. Pamela Gray, Magistrate Judge)
(Hon. Craig Iscoe, Associate Judge)
(Argued September 18, 2018

Decided August 23, 2019)

Before Black BURN E-RlGSBY, ChiefJudge, Glickman, Associate Judge, and
Nebeker, Senior Judge.

MEMORANDUM OPINION AND JUDGMENT
PER CURIAM: Appellants S.O. and M.B., the biological parents of D.O.,1
appeal the trial court’s order finding D.O. a neglected child as a result of an injury
that was not sufficiently explained by her parents.2 On appeal, appellants argue
that: (1) the trial court erred in finding that D.O.’s injuries were unexplained, and
thereby drawing an inference of neglect;3 (2) the trial court’s decision to discredit
their testimony, as well as the testimony of their expert witnesses, was clearly
erroneous; and (3) the trial court, alternatively, erred in finding D.O. neglected as a
result of a lack of proper parental care4 because there is no evidence that D.O.

S.O. is her father, and M.B. is her mother.
2 D C. Code § 16-2301 (9)(A)(i) & (ii) (2012 Repl.).
3 D.C. Code §§ 16-230l(9)(A)(i) & -2316(c) (2012 Repl.).
4 D.C. Code § 16-2301 (9)(A)(ii).

002

2
suffered any detriment from their decision not to seek medical attention
immediately.5 We affirm.
I. Background
On .Tune 24, 2016, then-six-week-old D.O. suffered injuries to her skull and'
body. According to numerous doctors, the explanation provided by appellants as
to how D.O. was injured did not match the extent of D.O.’s injuries. After S.O.,
the father, came home that evening after being out with his friends, around 12:50
a.m., D.O. woke from her sleep and began crying. S.O. testified that he picked
D.O. up from the bed in which she and M.B. were sleeping and took D.O. to the
living room. While he was holding D.O. in the living room, S.O. claimed that
D.O. suddenly put her arms up and titled her head back, which caused S.O. to
“los[e] her,” and D.O. to land head first onto the hardwood floor covered by a very
thin rug. Although D.O. started “screaming” as a result of the fall, S.O. did not
look for any injuries, and instead laid her down in the bed with M.B., the mother.
MB. said she did not hear anything. It was not until D.O. woke up crying around
six a.m., having difficulty nursing, that S.O. told M.B. about the fall the night
before. Appellants then took D.O. to Sibley Memorial Hospital (“Sibley”).
An emergency room physician at Sibley concluded that appellants5
explanation of the injury did not line up with the significant injuries sustained by
5 Appellants make a few additional arguments that we summarily address.
They contend that the District lacked standing to file the neglect petition, and the
trial court lacked jurisdiction to hear the petition, without a determination that there
was probable cause to believe the allegations were true.
These arguments lack merit. A finding that there is probable cause to
believe the allegations in a neglect petition are true is only required after a court
determines that a child’s placement in shelter care was necessary under D.C. Code
§ 16-2310 (2012 Repl.). See D.C. Code § 16-2312(e) (2012 Repl.). The trial court
made that finding on July 2, 2016. Even if the trial court had not found probable
cause, D.O.’s neglect case would not have been dismissed; rather, the trial court
would have ordered D.O. to be released during the pendency of the proceedings.
See D.C. Code § 16-2312(f). Further, if appellants are now challenging D.O.’s
placement in shelter care, their challenge is untimely because such a. challenge
must be sought within two days of the date of entry of the trial court’s order
placing the child in shelter care. See D.C. Code § 16-2328(a) (2012 Repl.),

003

D.O., which included bilateral parietal skull fractures with subarachnoid and small
hemorrhages as shown in a computerized axial tomography scan (“CAT scan”).
As a result, Sibley initiated contact with the Child and Family Services Agency
(“CFSA”) to report the situation. D.O. was subsequently transferred to Children’s
National Medical Center (“CNMC”) and was seen by three physicians there. First,
emergency room physician Dr. Xian Zhao examined D.O., reviewed her CAT scan
from Sibley, and concluded there was a concern for non-accidental trauma. Next,
CNMC pediatric radiologist Dr. Eglal Shalaby-Rana reviewed D.O.’s radiological
images and testified that D.O. had a healing classic metaphyseal lesion (“CML”) in
her left arm. Finally, Dr. Non-ell Atkinson, one of the Child and Adolescent
Protection Clinic doctors at CNMC, physically examined D.O. and reviewed her
scans. Dr. Atkinson found that D.O. had complex multiple skull fractures,
sustained multifocal areas of hemorrhage, or bleeding to the brain, and that there
were some suspected areas of contusions or bruising to the brain.
The following day, on June 25, two Metropolitan Police Department
(“MPD”) detectives and CFSA social worker Chanelle Reddrick were assigned to
investigate this case for possible child abuse. Based on the medical evidence, and
appellants’ unwillingness to answer subsequent questions from investigators,
CFSA made the determination to remove D.O. from appellants’ care four days
later, and kept her at CNMC for treatment.6 On July 1, 2016, the District filed a
neglect petition on behalf of D.O. On July 2, 2016, the trial court held an initial
hearing to determine both if shelter care was required and if there was probable
cause to believe the allegations in tine petition were true. The trial court found
probable cause to believe the allegations in the petition were true, and on July 3,
2016, D.O. was discharged from CNMC and placed in the foster home of a family
friend pending trial.

6 On June 28, 2016, Ms. Reddrick and one of the MPD detectives met with
appellants at CNMC and explained they had some additional questions regarding
the investigation. ITowever, S.O. informed the investigators that appellants would
not answer any additional questions in reference to the investigation. Ms.
Reddrick informed appellants that as a result of their refusal to answer additional
questions, she had to place a medical hold on D.O., and remove appellants from
the hospital. Ms. Reddrick also informed appellants that CFSA was removing
D.O. from their care because their unwillingness to answer questions rendered the
agency unable to develop a safety plan. D.O. was officially removed from the
appellants’ care on June 29, 2016.

004

4

On October 4, 20.16, the magistrate judge commenced a fifteen-day trial on
the District’s petition for neglect. Drs. Zhao and Shalaby-Rana were called as
expert witnesses for the District and testified that there was a concern for non­
accidental trauma, and that a CML was “not believed to be due- to [a] simple []
linear fall” as described by appellants. Dr. Atkinson was also called as an expert
witness for the District, and testified to a reasonable degree of medical certainty
that the fractures to D.O.’s skull were the result of significant blunt force trauma to
the head. Dr. Atkinson explained in her notes that:
[D.O.] has widespread injury to her brain and skull that
are out of proportion to the injuries that are observed in
infants who free fall from short or moderate heights.
[D.O.] sustained significant impact trauma to her head, . .
. Complicated falls can certainly introduce a greater
component of force to the head, resulting in greater
injury severity, however, this scenario has not been
described. The severity of [D.O.j’s head injuries make
her presentation most concerning for non-accidental
traumaf.]
Appellants testified that the fall was accidental and presented five expert
witnesses to testify that D.O.’s injuries were consistent with their story. Dr. David
Ayoub was qualified as an expert in the field of diagnostic radiology, and
concluded that D.O.’s fractures were simple linear fractures with mild diastasis, or
slight widening, on both sides of her head. Dr. Julie Mack was qualified as an
expert in pediatric radiology, and opined that D.O.’s fractures traveled through the
less mineralized areas of her skull, and her head injuries are consistent with the
type of impact S.O. had described. Drs. Roger Haut and Chris Van Ee were both
qualified as experts in impact biomechanics, and they both testified that D.O.’s
injuries were consistent with appellants’ explanation of the fall. Finally, Dr. .Leslie
Sutton was qualified as an expert in pediatric neurosurgery and pediatric
neuroradiology. Dr. Sutton concluded that D.O.’s injuries were consistent with the
fall as described. None of appellants’ experts, however, examined D.O.
Following the fifteen-day trial, the magistrate judge determined that D.O.
was a neglected child under both D.C. Code § 16-2301 (9)(A)(i) and DC. Code

005

5
§ 16-2301 (9)(A)(ii),7 In her oral findings, the magistrate judge explained that the
case rose and fell on whether appellants’ explanation was credited; however, she
discredited appellants’ testimony. She further explained that she could not believe
any of appellants’ experts’ testimony because the experts had relied solely on
S.O.’s account of the fall in making their assessment. In her subsequent written
findings, the magistrate judge elaborated that, unlike the District’s expert Dr.
Atkinson, none of appellants’ experts were credential ed in child abuse pediatrics,
and their opinions were ‘"contradictory,” “riddled with issues regarding each
parent’s credibility,” and “scattered], at best.” The magistrate judge therefore
found D.O. a neglected child under D.C. Code § 16-2301 (9)(A)(i), reasoning that,
because the she did not credit appellants’ explanation of D.O.’s injuries, D.O.’s
injuries were not satisfactorily explained pursuant to D.C. Code § 16-2316(c). 8
The magistrate judge also found that, under the alternative basis of D.C. Code
§ 16-230 l(9)(A)(ii), D.O. was a neglected child because she suffered multiple and
severe injuries while in the care of appellants after a reported fall, medical
attention was not sought immediately, and no plausible explanation was provided.9
Associate Judge Craig Iscoe affirmed the magistrate judge’s neglect findings,
concluding that appellants did not provide a satisfactory explanation for the
7 Pursuant to D.C. Code § 16-230 l(9)(A)(i), “[t]he term ‘neglected child’
means a child who has been abused or abandoned by his or her parent, guardian, or
custodian, or whose parent, guardian, or custodian has failed to make reasonable
efforts to prevent the infliction of abuse upon the chi!d[.]”
Pursuant to D.C. Code § 16-2301 (9)(A)(ii), “[tjhe term ‘neglected child’
means a child who is without proper parental care or control, subsistence,
education as required by law, or other care or control necessary for his or her
physical, mental, or emotional health, and the deprivation is not due to lack of
financial means of his or her parent, guardian, or custodian[.]”
Pursuant to D.C. Code § 16-2316(c), “[wjhere a petition alleges a child is
neglected by reason of abuse, evidence of illness or injury to a child who was in
the custody of his or her parent, guardian, or custodian for which the parent,
guardian, or custodian can give no satisfactory explanation shall be sufficient to
justify an inference of neglect.”
9 D.O. was returned to her parents’ care on March 20, 2017, after the trial
court found that appellants made sufficient progress towards their reunification
goal.

006

6
severity of D.O.’s injuries, and that the magistrate judge did not abuse her
discretion when she discredited appellants’ testimony. This appeal followed.
II. Legal Framework
In a neglect proceeding, the burden is on the District to prove that a child is
neglected by a preponderance of the evidence. In re P.B., 54 A.3d 660, 665 (D.C.
2012). Upon review of a claim of evidentiary insufficiency, “we must view the
evidence in the light most favorable to the District and draw every reasonable
inference in the District’s favor.” Id. (quoting In re E.H., 718 A.2d 162, 168-69
(D.C. 1998)). “This court will not redetermine the credibility of witnesses,” In re
P.B., 54 A.3d at id., and we will reverse the magistrate judge’s credibility findings
only if we determine that they are clearly erroneous, since as the fact finder, the
magistrate judge had the opportunity to observe the witnesses’ demeanor. See In
re K.C., 200 A.3d 1216, 1232 n.8 (D.C. 2019) (quoting In re S.L.G., 110 A.3d
1275, 1285 (D.C. 2015)). “This court will reverse a finding of neglect only if it is
plainly wrong or without evidence to support it.” In re P.B., 54 A.3d at id.
(quoting In re A.B., 999 A,2d 36, 44 (D.C. 2010)) (internal brackets omitted): see
also D.C. Code § 17-305(a) (2012 Repl.).
Under D.C. Code § 16-2301 (9)(A)(i), a neglected child is “a child who has
been abused or abandoned by his or her parent, guardian, or custodian, or whose
parent, guardian, or custodian has failed to make reasonable efforts to prevent the
infliction of abuse upon the child[.]” An inference of neglect may be justified
where a child sustains an injury while in the custody of his or her parent and no
satisfactory explanation is provided. See D.C. Code § 16-2316(c). In order for a
finding of neglect to be justified under D.C. Code § 16-2316(c), there must be a
rational connection between facts proved and a presumption of neglect. In re
C.C.J., 777 A.2d 265, 268 (D.C. 2001). Alternatively, a child is a neglected child
pursuant to D.C. Code § 16-2301 (9)(A)(ii) if he or she is deprived of the “proper
parental care . . . necessary for his or her physical, mental, or emotional health, and
the deprivation is not due to lack of financial means of his or her parent, guardian,
or custodian[,]” The magistrate judge found neglect under both of these
provisions.
We will affirm a neglect finding if the medical evidence shows that an injury
is not sufficiently explained and an inconsistent explanation for the injury is
provided by the parents. See In re L.E.J., 465 A.2d 374 (D.C. 1983). For example,
in In re L.E.J., we upheld the trial court’s conclusion that an inference of neglect
under D.C. Code § 16-2316(c) was justified as a result of an inconsistent

007

7
explanation. 465 A.2d at 374. In In re L.E.J., the child sustained fractures in both
of his arms, and appellant-mother never provided a consistent account of how the
injuries occurred. Id. at 375-76.
III. Discussion
Appellants’ challenge the sufficiency of the evidence to support the
magistrate judge’s credibility determinations and findings of neglect. They
contend that there was no support in the record for the magistrate judge’s
discrediting of their testimony and their experts’ testimony . Generally, credibility
determinations of the fact finder are entitled to great weight. See In re K.M., 164
A.3d 945, 949 (D.C. 2017) (In reviewing a sufficiency claim in a neglect matter,
“we are obliged to view the evidence in the light most favorable to sustaining the
judgment, ‘giving full play to the right of the magistrate judge, as the trier of fact,
to determine credibility weigh the evidence, and draw reasonable inferences.”’)
(internal citation and brackets omitted). We review challenges to a fact finder’s
credibility determinations for abuse of discretion or clear lack of evidentiary
support. In re S.L.G., 110 A.3d at 1285. Here, the magistrate judge’s credibility
determinations were supported by the evidence and based on her assessment of the
witnesses’ demeanor as they testified before her. The magistrate judge discredited
S.O.’s testimony for several reasons. S.O. misrepresented himself as a criminal
attorney twice during the initial investigation before explaining that he was
actually a recent law school graduate who had not yet taken the bar exam.10
Additionally, the magistrate judge found it questionable that S.O. testified that he
could not. bring himself to inform M.B. of the fall that night, despite his first aid
trauma training in the military, which included tending to the head injuries of
others. The magistrate judge also discredited M.B.’s testimony, finding it
questionable that M.B. did not ask S.O. any questions after learning about the fall
and that M.B. did not initially share with the daycare that D.O. hurt her head when
they enrolled D.O. two months after the fall. Appellants also stopped providing
information or answering Dr, Atkinson’s questions, and audio recorded an
appointment with Dr, Atkinson without her knowledge or consent. The magistrate
judge found that these facts further supported her conclusion that neither of the
10 S.O. initially indicated to investigators that he was an attorney, and told
Dr. Atkinson that he was an attorney during their initial conversation. When
subsequently asked about his employment, S.O. stated that he was not currently
working, but just finished law school at American University and was studying for
the bar.

008

8
parents demonstrated appropriate care for D.O. at the time the injuries occurred, as
they “seemed to put their needs ahead of [D.O.j’s [.]” Moreover, the magistrate
judge found that appellants’ story was disputed by Dr. Atkinson’s expert testimony
on multiple counts. First, their story of an accidental fal l was in conflict with Dr.
Atkinson’s testimony that the fractures to D.O.’s skull were the result of significant
blunt force trauma to the head. Dr. Atkinson wrote in the notes she took after
examining D.O. that a fall scenario resulting in the severity of injury D.O.
sustained had not been described by the appellants. Second, in light of appellants’
story, Dr. Atkinson testified that, given the significant amount of injury to D.O.’s
brain, the fact that M.B. did not hear D.O.’s cry was concerning.
Appellants further contend that the trial court erroneously found that
appellants’ lack of credibility tainted all of their expert witnesses’ testimony. In
her written findings, the magistrate judge found that appellants’ evidence did not
sufficiently rebut the District’s evidence because the experts’ testimony
contradicted each other, as well as appellants’ testimony and. actions. For example,
Dr. Ayoub and Dr. Mack testified that the severity of D.O.’s injuries were a result
of a bone disorder, but appellants’ testified that they had no reason to believe D.O.
had a bone disorder, and appellants declined to have D.O. tested to ensure there
were no issues with her bone health. Another expert. Dr. Sutton, testified that he
did not see any abnormalities in D.O.’s bone mineralization, and Dr. Mack
acknowledged that her opinion on D.O.’s bone mineralization took a position that
was contrary to what she had been taught in medical school and her medical
training." In any event, the magistrate judge heard both sides’ experts and
credited the District’s expert, Dr. Atkinson. See In re D.S., 747 A.2d 1182, 1185
(D.C. 2000). We will not second guess the magistrate judge’s well-reasoned
credibility findings. See Joyner v. Estate of Johnson, 36 A.3d 851, 859 (D.C.
2012).
The medical evidence and testimony of Dr, Atkinson provided sufficient
evidence in the record for the magistrate judge to find that D.O.’s injuries could
not be satisfactorily explained by appellants’ story that D.O. slipped and fell out of
S'.O.’s arms. Dr. Atkinson testified that D.O.’s skull fractures were the result of
11 Dr. Mack testified that D.O.’s bone mineralization was at such a level that
she fits the definition of bone fragility, which would permit a fracture to occur
under low force. Dr. Mack further testified that, in her training as a pediatric
radiologist, she was taught that CMLs “require[d] violent trauma,” but she now
believes that such fractures can occur under low forces.

009

9
blunt force trauma impact to the head, and that a simple household fall should not
have resulted in the degree of injury sustained by D.O. Dr. Zhao likewise testified
that D.O.’s injuries presented a concern for non-accidental trauma. Dr. Atkinson
further testified, to a reasonable degree of medical certainty, that D.O.’s CML
fracture in her left arm was the result of some type of “shearing” or “tractional
force” applied to the limb, and that appellants did not provide an explanation for
this injury. Dr. Shalaby-Rana similarly testified that a CML could not result from
a simple linear fall as described by appellants. Accordingly, the magistrate judge
did not err in making an inference of neglect under D.C. Code § 16-2316(c)
because appellants provided no satisfactory explanation for D.O.’s injuries, and
therefore the trial court did not err in finding D.O. neglected under D.C. Code
§ 16-2301 (9)(A)(i).12
Alternatively, the evidence was also sufficient to support the magistrate
judge’s findings and conclusion that appellants’ failure to timely care for D.O.’s
injuries rendered D.O. a neglected child under D.C. Code § 16-2301 (9)(A)(ii)
because it resulted in the deprivation of necessary physical care to their child.
Appellants claim that there is no evidence in the record that D.O. suffered any
detriment from the fact that S.O. waited until the next morning to inform M.B.
about the fall and to take D.O. to the hospital, which appellants claim was “the first
indication that D.O. was not acting normally.” Appellants further assert that D.O.
suffered no lasting impacts from the fall, and is developmentally on track. The
trial court, however, concluded that appellants’ behavior did not demonstrate
“appropriate care for [D.O.] at the time that the injuries occurred,” noting, inter
alia, that medical attention was not sought immediately by S.O. who received
medical training in the military, M.B. “was not really concerned” after learning
about the fall, and both parents stopped providing information to Dr. Atkinson and
recorded an appointment without her knowledge, which “seemed to put their needs
ahead of [D.O.]’s[.]” The findings of the magistrate judge support her conclusion
that D.O. was without proper care at the time of her injury, and was therefore a
12 Appellants further argue that the District failed to establish D.O.
sustained a physical injury, as defined by D.C. Code § 16-2301(30) (2012 Repl.),
to her left arm. See D.C. Code.§ 16-2301(30) (defining the term “physical injury”
as “harm greater than transient pain or minor temporary marks.”) Appellants assert
that D.O. suffered no lasting impacts from the fall, and is developmentally on
track. However, the law does not require a child suffer lasting impacts to find a
physical injury, only that the child suffer harm greater than transient pain or minor
temporary marks.

010

10
neglected child under D.C. Code § 16-2301 (9)(A)(ii). See, e.g., In re K.M., 164
A.3d at 948-49 (magistrate judge’s finding of neglect under D.C. Code §162301 (9)(A)(ii) not an abuse of discretion where the evidence showed that the
parents failed to provide the child with adequate medical care and treatment for his
ongoing medical problems); see also In re K.S., 966 A.2d 871, 880-81 (D.C. 2009)
(parent’s infliction of mental and emotional injury on child and subsequent failure
to care for her mental and emotional needs rendered child neglected under both
D.C. Code . §§ 16-2301 (9)(A)(i) & (ii)). Accordingly, we affirm the magistrate
judge’s conclusion that D.O. was a neglected child under both D.C. Code §§ 162301 (9)(A)(i) & (ii).13 '
Accordingly, the judgment on appeal is affirmed.
ENTERED BY DIRECTION OF THE COURT:

CL.
JjLiLIO A. CASTILLO
C^rk of the Court

13 Finally, appellants allege that the magistrate judge’s written findings were
a “near verbatim adoption” of the District and the guardian ad litem's joint
proposed findings of fact that did not reflect the court’s independent
determinations. While the magistrate judge did adopt the joint proposed findings,
the written findings reflected her independent determinations because (1) the
magistrate judge made specific oral findings before adopting the proposed
findings, (2) the findings were made and discussed on the record with counsel
present, prior to entering the written judgment, and (3) the magistrate judge edited
the proposed findings by cutting down sections and adding footnotes. There was
also no error in the magistrate judge’s entering of written findings that did not
include the exact wording used in her earlier oral findings. There were no
inconsistencies between the oral and written findings in this case—the written
findings merely expanded upon the basis and rationale put forth in the magistrate
judge’s oral findings.

Oil

n
Copies to:
Honorable Craig Iscoe
Director, Family Court Operations
District of Columbia Superior Court
MB.

Copies e-served to:
S.O.
Lauren B. Schwartz, Esquire
Rhondalyn Primes Okoroma, Esquire
Loren L. AliKhan, Esquire
Soli citor General of DC
David J. Stark, Esquire

012

©(strict of Columbia
Court of Appeals

F

L
FEB 1 2 20Z0

S

DISTRICT OF COLUMBIA
COURT OF APPEALS

No. .17-FS-444
IN RE: D.O.; S.O. & M.B.,
APPELLANTS.

BEFORE:

NEG204-16

B lackburne-Rigsby, Chief Judge; Glickman, Fisher, Thompson,
Beckwith, Easterly, McLeese, and Deahl, Associate Judges.

ORDER
On consideration of appellants’ joint motion to strike the appellee District of
Columbia’s May 3, 2019, Rule 28(k) letter, appellants’ petition for rehearing en
banc; appellee District of Columbia’s opposition to appellants’ petition for rehearing
en banc, and appellants’ motion to file a reply to appellee District of Columbia’s
opposition, and it appearing that no judge of this court has called for a vote on the
petition for rehearing en banc, it is
ORDERED that appellants’ joint motion to strike the appellee District of
Columbia’s May 3, 2019, Rule 28(k) letter is denied. It is
FURTHER ORDERED that appellants’ motion to file a reply to appellee
District of Columbia’s opposition is denied. It is
FURTHER ORDERED that the petition for rehearing en banc is denied.

PER CURIAM

Copies to:
Honorable Craig Iscoe
Director, Family Division

013

No. 17-FS-444
Copies to:
M.B.
3600 Connecticut Avenue, NW
Apartment 307
Washington, DC 20008
Copies e-served th:
S.O.
Lauren B. Schwartz, Esquire
Rhondalyn Primes Okoroma, Esquire
Office of the Attorney General
Loren L. AliKhan, Esquire
Solicitor General for DC
pn

014

